United States Department of State
and the Broadcasting Board of Governors


Office of Inspector
General

Strategic Plan
         FY 2014-2019




                                 thomasbd2
                         Department of State
                               FY 2013-2018
   Message from the Acting Inspector General
U.S. Department of State and Broadcasting Board of Governors

I am pleased to present the Office of Inspector General Strategic Plan for fiscal
years 2014 to 2019.
Since the release of our last strategic plan in 2009, OIG has implemented
several initiatives to strengthen and streamline its core capabilities and
overseas presence. Since 2009, OIG opened field offices in Iraq, Afghanistan,
and Pakistan to provide more effective oversight of critical, resource-intensive
Department operations in the Middle East and in South and Central Asia. OIG
rebuilt the capacity and capabilities of its Office of Investigations, whose
resources had seriously eroded in the preceding decade. The Office of Audits
and Office of Inspections were restructured to align future work with long-
term OIG and Department goals, including those identified in the
Department’s Quadrennial Diplomacy and Development Review. OIG will
continue to seek opportunities to better fulfill its oversight responsibilities,
protect whistleblowers, and remain at the forefront of efforts to identify
potential savings, efficiencies, and useful feedback for the Department and
BBG.
This plan sets forth OIG’s strategic priorities to promote positive change,
maximize efficiency and value in our work, and lead by example. It further
provides the means and strategies by which we will achieve these priorities,
and the standards by which we will measure our success. This is an evolving
document, which will be updated as necessary to ensure that OIG’s work
remains relevant, timely, and responsive to global developments and the
priorities of the foreign affairs community.

                                                    Harold W. Geisel,
                                                    Acting Inspector General
                                                                August 2013
  Introduction
  The Office of Inspector General (OIG) has the leading role in helping the Department of State and the
  Broadcasting Board of Governors (BBG) improve management, strengthen integrity and accountability,
  investigate and deter fraud, and ensure the most efficient, effective, and economical use of resources. OIG’s
  oversight extends to the Department’s and BBG’s 72,000+ employees and 280 missions and other facilities
  worldwide, funded through combined annual appropriations of more than $18 billion and $2.4 billion in fee-
  based services. OIG also provides oversight for the United States Section of the International Boundary and
  Water Commission. OIG remains at the forefront of efforts to identify potential savings and cost
  efficiencies for the Department and BBG, and strives to provide timely, relevant, and useful feedback that
  supports decisionmakers in strengthening critical programs and operations to promote U.S. interests.
  OIG’s mandate includes the traditional areas of emphasis for the Department and BBG – including
  diplomatic and consular affairs, security, international broadcasting, administrative and financial
  management, and information technology – as well as new initiatives and priorities. Department initiatives
  related to foreign assistance programs, counterterrorism, public diplomacy, and other areas identified in the
  Department’s Quadrennial Diplomacy and Development Review (QDDR) increase OIG’s responsibility to
  provide meaningful and current feedback on these evolving programs.

  OIG operates on a global basis, with overseas offices in Afghanistan, Pakistan, Iraq, and Jordan to
  strengthen its oversight of high-cost, high-risk Department activities in South and Central Asia and the
  Middle East. OIG’s Middle East Region Operations (MERO) Directorate within the Office of Audits and
  the Middle East Investigative Branch (MEIB) within the Office of Investigations dedicate on-the-ground
  resources, expertise, and oversight to critical high-risk, high-threat Department programs and U.S. interests
  in crisis, conflict, and post-conflict areas.

  OIG’s Mission, Vision, and Core Values
  OIG’s mission is to conduct independent audits, inspections, evaluations, and investigations to promote
  effective management, accountability, and positive change in the Department, BBG, and the foreign
  affairs community. OIG provides leadership to:
          Promote integrity, efficiency, effectiveness, and economy;
          Prevent and detect waste, fraud, abuse, and mismanagement;
          Identify vulnerabilities and recommend constructive solutions;
          Offer expert assistance to improve Department and BBG operations;
          Communicate timely, useful information that facilitates decision-making and achieves
           measurable gains; and
          Keep the Department, BBG, and the Congress fully and currently informed.
  OIG’s vision is to be a world-class organization promoting effective management, accountability, and
  positive change in the Department of State, the Broadcasting Board of Governors, and the foreign affairs
  community. Its “CORE” values are:
          Credibility. OIG is committed to the highest standards of accountability, independence, integrity,
           and professionalism.
          Objectivity. OIG’s reports and other products are factual, accurate, informative, and reliable.
          Relevance. As an independent agent for positive change, OIG provides valuable and timely
           service.
          Effectiveness. OIG makes a difference. OIG’s impact is enhanced by working cooperatively, in
           a spirit of teamwork, internally and with other organizations.


OIG Strategic Plan
2014 – 2019                                                                                                 2
  Statutory Responsibilities
  The Inspector General Act of 1978, the 1980 Foreign Service Act, and the 1998 Foreign Affairs Reform
  and Restructuring Act charge the OIG with oversight responsibility for the Department of State and the
  Broadcasting Board of Governors. These responsibilities include detecting and preventing waste, fraud,
  and mismanagement, and assessing whether those organizations are achieving U.S. foreign policy goals,
  using resources are used to maximum efficiency, and coordinating all elements of U.S. overseas
  missions.

  OIG’s security and intelligence oversight responsibilities were established through the Omnibus Diplomatic
  Security and Anti-Terrorism Act of 1986 and related Executive Orders. OIG’s responsibilities for providing
  effective oversight of overseas contingency operations were established through the National Defense
  Authorization Act for FY 2013, Responsibilities of the Inspectors General for Overseas Contingency
  Operations. OIG also is responsible for evaluating compliance with other legislation—including the Chief
  Financial Officers Act, Federal Managers’ Financial Integrity Act, and the Federal Information Security
  Management Act— designed to enhance management performance.

  OIG Organization
  OIG comprises three functional offices, as well as executive oversight and support activities. The
  Office of Audits, Office of Inspections, and Office of Investigations conduct audits, inspections,
  evaluations, investigations, compliance follow-up, and other reviews worldwide. The Immediate
  Office of Inspector General, the Office of General Counsel, including Congressional and Public
  Affairs, and the Office of the Executive Director provide executive direction, planning, and support
  activities.



                                      Office of Inspector General
                 U.S. Department of State and the Broadcasting Board of Governors


                                            Inspector General                    Office of General
                                                                                      Counsel

                                                                                   Congressional &
                                                  Deputy IG                         Public Affairs




                     Office of            Office of              Office of                   Office of the
                      Audits            Inspections                                           Executive
                                                              Investigations                   Director


                     Baghdad Office                             Amman Office


                      Kabul Office                              Baghdad Office


                       Islamabad                                 Kabul Office
                         Office




OIG Strategic Plan
2014 – 2019                                                                                                  3
  Office of Audits
  The Office of Audits is the single audit component of OIG, consisting of two directorates: the Audit
  Directorate and the Middle East Region Operations (MERO) Directorate. The Audit Directorate
  conducts audits and program evaluations of the Department and the BBG, including their audited
  financial statements, information security, internal operations, and external activities funded through
  contracts or financial assistance. The MERO Directorate is responsible for performing engagements
  within the Middle East and South and Central Asia, in addition to the general operation of overseas
  offices in Kabul Afghanistan; Islamabad, Pakistan; and Baghdad, Iraq.

  Office of Inspections
  The Office of Inspections assesses domestic and overseas operations and facilities of the Department
  and BBG. Inspections review executive direction, policy and program implementation, resource
  management, and management controls. The Office of Inspections also provides oversight of
  programs and operations relating to foreign assistance funding, public diplomacy, and Department
  efforts to counter terrorism worldwide, including in Afghanistan, Iraq, Pakistan and other crisis,
  conflict, and post-conflict areas. The office reviews Department progress in achieving efficiencies,
  including rightsizing and consolidating Department and other agency platforms overseas, and
  increasing the use of regional centers. Inspectors also assess information security programs at
  overseas posts and domestic facilities, as well as promulgation of secure configuration standards. The
  office retains a quick-reaction capability to address requests made on short notice by Congress or
  senior Department officials.

  Office of Investigations
  The Office of Investigations conducts worldwide investigations of criminal, civil, and administrative
  misconduct related to programs and operations of the Department, BBG, and the United States
  Section, International Boundary and Water Commission. The office investigates specific allegations,
  reports, or other information indicating possible violations of law or regulation. Investigative results
  are referred to the Department of Justice for prosecution, and to the Bureaus of Human Resources and
  Diplomatic Security, the Office of the Procurement Executive, or other agencies for administrative or
  other appropriate action. The Office of Investigations also maintains the OIG Hotline, a confidential
  channel for complaints and allegations.

  Executive Direction and Support Offices
  The functional offices receive direction and support from other OIG components. The immediate Office
  of Inspector General provides executive direction to all offices. The Office of General Counsel provides
  legal and policy advice to the Inspector General, senior staff, and others in OIG on the full range of OIG
  activities; provides advice on internal personnel, ethics, and management issues; and manages OIG's
  Freedom of Information Act and Privacy Act programs. The Congressional and Public Affairs staff, led
  by the General Counsel, provides liaison with the Congress and the media, and ensures that OIG speaks
  with one voice to all audiences, including the Department, BBG, the Congress, the media, and the general
  public. The Office of the Executive Director provides administrative and management support to OIG in
  the areas of human resources management, administrative operations, budget, information technology,
  security, policy and planning, outreach and publications, and records management.

  Stakeholders
  OIG’s stakeholders include the Congress and its staff; the Secretary of State and other Department
  officials, managers, and staff; the Board of the BBG, and BBG management and staff; the Council of
  the Inspectors General on Integrity and Efficiency; other U.S. Government agencies; Federal, state, and
  local law enforcement agencies; and members of the general public – especially the U.S. taxpayer. OIG

OIG Strategic Plan
2014 – 2019                                                                                                 4
  seeks input from its stakeholders in planning its work, accommodates special requests received outside
  of the planning process, and welcomes feedback on its products, processes, and services. OIG staff also
  conducts extensive outreach activities, briefing attendees of courses at the Foreign Service Institute, as
  well as ambassadors and other officials before they depart for overseas posts.

  General Means and Strategies
  The fundamental means for OIG to achieve its strategic and performance goals will continue to be the
  audits, inspections, evaluations, and investigations that make up the bulk of its efforts. In addition to
  fulfilling mandatory requirements and responding to Congressional, Department, and White House
  requests, OIG conducts oversight in response to immediate priorities and demands, and proactively
  reviews new programs and potential problem areas identified in the course of its work. OIG will
  continue to review and, as appropriate, revise its own processes and methodologies to get the most value
  from its resources, better serve its stakeholders and other interested parties, and ensure the achievement
  of its strategic and performance goals.
  OIG will strive for the utmost transparency in using its resources, executing its work, and reporting
  results. OIG will continue its efforts to solicit regularly the views of, and obtain feedback from, principal
  customers and other interested parties through consultations and follow-up reviews to ensure that its
  products and services are meeting their needs. OIG will continue to address the challenges of the foreign
  affairs agencies, work with them to anticipate and address potential problems in new and developing
  initiatives and programs, and use a consultative approach in communicating OIG’s activities, findings,
  and recommendations.
  OIG will continue to request from Congress personnel authorities and financial incentives needed to
  recruit the staff and skill sets needed for its work and oversight of high-risk, high-threat programs and
  operations throughout the world, including Afghanistan, Iraq, Pakistan, and other crisis, conflict, and
  post-conflict areas, as mandated by the National Defense Authorization Act for FY 2013,
  Responsibilities of the Inspectors General for Overseas Contingency Operations. OIG promotes
  professional development of its staff with a variety of educational and career development opportunities,
  including both formal training at high quality institutions, and on-the-job experiences.
  OIG will pursue its strategy of establishing overseas field offices staffed with employees who can provide
  immediate response for evaluation, audit, or investigative needs of high-risk, high-threat programs and
  operations in crisis, conflict, and post-conflict regions. OIG’s overseas presence will focus on the Middle
  East and South and Central Asia for the foreseeable future. OIG will consider establishing temporary
  field operations in other crisis, conflict, post-conflict, and high-risk areas to provide more timely
  information and assistance with respect to regional issues and priorities.
  Finally, OIG will “follow the money” to help decisionmakers within the Department and BBG manage
  scarce financial resources. In planning audits, evaluations, and inspections, OIG will target high-cost,
  high-risk programs and operations, as identified in the QDDR and other strategic planning documents, to
  provide Department and BBG managers with information that will assist them in determining the most
  effective use of limited resources. Investigations will provide oversight to the Department’s domestic
  and international acquisition and grant activities at a level consistent with the increasing growth in
  volume and complexity.

  Key Factors That Could Affect Goal Achievement
  Numerous external factors could affect OIG’s ability to achieve its goals and targets. Increased levels of
  terrorism, armed conflict, and natural disasters could impair OIG’s ability to carry out planned activities
  because of travel restrictions or security concerns. Evolving foreign policy developments could result in
  additional demands that have not been anticipated and that exceed the resources available for unplanned

OIG Strategic Plan
2014 – 2019                                                                                                  5
  activities. On-the-ground developments in Iraq, Pakistan, and Afghanistan will affect the scope and
  timing of OIG’s work in those countries. Additional significant oversight responsibilities could transfer
  to OIG with the imminent “sunset” of the Special Inspector General for Iraq Reconstruction and eventual
  sunset of the Special Inspector General for Afghanistan Reconstruction.

  Other factors that could affect goal achievement include an increase in the number of unfunded
  Congressional requests and mandates, such as increased involvement in the whistle blower protection
  arena that require OIG to redirect its resources and activities, reducing the resources available for planned
  discretionary activities. Funding constraints and the unanticipated departure of trained staff would also
  adversely affect OIG’s ability to meet its strategic goals and performance targets.

  The Department of State’s Strategic Plan
  In addition to its own strategic plan, OIG is included in the Department’s plan, specifically as a
  component of the Department’s strategic goal to “Build a 21st Century workforce; achieve a U.S.
  Government operational and consular efficiency and effectiveness, transparency and accountability;
  and secure U.S. Government internationally.” This Department goal encompasses visa and passport
  services, human resources, information technology, security, facilities, planning and accountability,
  administrative services, and rightsizing and regionalization.

  OIG’s contribution to the Department is broader than this single strategic goal, however. The Department
  recognizes this fact in its methodology for estimating the resources attributable to each strategic goal. In
  preparing its annual performance report, the Department categorizes OIG as providing global support to
  the Department, rather than allocating OIG resources to individual goals.

  OIG Strategic Goals, Strategies, and Performance Measures

                                  GOAL ONE: Positive Change
   Support and assist the Department and the BBG in strengthening management and consular
   capabilities and program effectiveness.

  STRATEGIES
          Ensure OIG’s work addresses issues of concern to its stakeholders, and periodically reassess areas
           of emphasis to reflect changing priorities of the Administration, Congress, the Department, and
           BBG.
          Use a risk management approach to identify mission-critical systems and operations, potential
           vulnerabilities, and priority areas for evaluation.
          Through audits, inspections, evaluations, and compliance follow-up reviews, assess Department
           and BBG progress in correcting management control weaknesses.
          Identify systemic issues and promote best practices found in the course of individual
           inspections, audits, evaluations, and investigations, and recommend global solutions to
           strengthen Department and BBG management and programs.
          Deploy multifunctional teams of auditors, inspectors, information technology specialists, and
           security professionals to leverage OIG resources in addressing high priority work in Afghanistan,
           Iraq, Pakistan, and other crisis, conflict, and post-conflict areas.




OIG Strategic Plan
2014 – 2019                                                                                                 6
  PERFORMANCE INDICATORS

          1-1. Percentage of recommendations resolved within the appropriate timeframe.

  Recommendations are a major product of OIG’s audits, inspections, and evaluations, and serve as the
  vehicle for correcting vulnerabilities and realizing positive change in the Department and BBG.
  Resolution of recommendations reflects management’s willingness to take the actions recommended by
  OIG to correct identified problems and improve their programs and operations. The percentage of
  recommendations resolved within six months (inspections) or nine months (audits and program reviews)
  indicates to what extent management has agreed to take timely action to correct identified problems in
  line with OIG recommendations, or has identified acceptable alternatives that are expected to result in
  improved programs and operations.


          1-2. Percentage of OIG reports and investigations that focus on Department and
              BBG management challenges.

  OIG audits, inspections, and reviews evaluate Department and BBG efforts to achieve results-oriented
  management, identify major management challenges, and recommend improvements. OIG investigations
  that address alleged malfeasance with respect to Department and BBG management challenges also
  contribute to management improvement initiatives. The percentage of OIG work related to agency
  management challenges demonstrates the degree to which OIG’s work is focused on improving the areas
  of greatest vulnerability in agency operations.


                               GOAL TWO: Efficiency and Value
    Produce timely, quality work and products with relevant, credible, reliable information that
    is useful to Department, BBG, and Congressional decisionmakers, particularly in
    managing resources.


  STRATEGIES
          Perform risk assessments in planning audits, inspections, evaluations, and investigations to
           identify opportunities for cost savings and avoidance of costs.
          Review and recommend internal control improvements in programs and functions of the
           Department and BBG that are vulnerable to misappropriation, loss, or waste of resources.
          Assess the economy, efficiency, and effectiveness of interagency program support services,
           including whether the most cost-effective means are used in providing services to foreign affairs
           agencies overseas.
          Maintain internal quality assurance and review programs to ensure the reliability and credibility
           of OIG products.
          Maintain transparency in conducting and reporting the results of OIG audits, inspections, and
           evaluations.
          Maximize the use of appropriate technologies to start and finish jobs more efficiently,
           disseminate the results broadly, and facilitate the storage and retrieval of reports.


OIG Strategic Plan
2014 – 2019                                                                                                7
  PERFORMANCE INDICATORS

          2-1. Monetary benefits: questioned costs, funds put to better use, cost savings,
               recoveries, efficiencies, restitutions, and fines.

  OIG's audits, inspections, evaluations, and investigations result in potential and actual cost savings and
  efficiencies to the Department and the BBG. Monetary benefits from OIG's work result in more effective
  and efficient use of U.S. taxpayer dollars, and are a primary mandate of the Office of Inspector General.

          2-2. Percentage of Hotline complaints converted to full investigations, referred to
               other entities, or determined to be unsubstantiated within 30 days.

  OIG’s investigations contribute to accountability through improved management, efficiency, and
  effectiveness of Department and BBG programs, operations, and activities. The percentage of Hotline
  complaints converted to full investigations, referred to other entities, or determined to be unsubstantiated
  within 30 days measures OIG’s ability to make a rapid assessment of allegations and initiate appropriate
  action.


                                      GOAL THREE: People
    Lead by example in providing a model OIG work environment that facilitates timely, quality
    work and products.

  STRATEGIES
           Focus recruitment efforts on requisite skill sets such as auditors with expertise in programmatic
            evaluations and financial audits, information technology, and contracts and grants; investigators
            with proficiency in computer forensics and contracts and grants; and inspectors in all diplomatic
            and management specialties.
           Encourage all employees to complete Individual Development Plans, ensure that all employees
            fulfill mandatory training requirements, and support employees in their pursuit of developmental
            training.
           Encourage and support employees’ efforts to achieve appropriate professional certifications, such
            as the designation of Certified Public Accountant, Certified Fraud Examiner, Certified Internal
            Auditor, and Certified Information Systems Auditor.
           Provide the support structure and technological tools and equipment that will assist employees in
            producing quality and timely products.

  PERFORMANCE INDICATOR

          3-1. Annual rate of attrition for Civil Service employees.

  OIG’s products and services are only possible through its people. OIG’s success is predicated on
  attracting and retaining highly qualified employees with functional and/or subject matter expertise in
  auditing, program evaluation, and investigations, as well as foreign policy, information technology,
  security, and public diplomacy. Employee retention is measured in terms of annual attrition of Civil
  Service employees, who represent approximately 93 percent of OIG staff.

OIG Strategic Plan
2014 – 2019                                                                                                 8
